February 22, 2010

TIMOTHY C. HEALY
VICE PRESIDENT, RETAIL PRODUCTS AND SERVICES

JACK L. MEYER
MANAGER, FIELD AND INTERNATIONAL ACCOUNTING

EDWARD L. BROWN
MANAGER, ST. LOUIS ACCOUNTING SERVICE CENTER

SUBJECT: Audit Report – Controls Over Money Orders
         (Report Number FT-AR-10-009)

This report presents issues regarding controls over money orders (Project Number
09BM004FT002). We identified these issues during our audit of fiscal year (FY) 2009
U.S. Postal Service Financial Statements – St. Louis Information Technology and
Accounting Service Center (Project Number 09BM004FT000). The objective of this
portion of the audit was to determine whether controls over money order replacement
checks, account reconciliations, and escheatment were adequate. This audit addresses
financial risks when certain money order controls do not exist or are not working as
designed. See Appendix A for additional information about this audit.

Conclusion

Based on our review of money order processes at the St. Louis Accounting Service
Center (ASC), we found controls over replacement checks, account reconciliations, and
escheatment1 needed improvement. As a result, there is an increased risk the Postal
Service could issue improper money order replacement checks or misstate account
balances. Further, we project the Postal Service issued $367,550 in money order
replacement checks supported by incomplete forms during the period reviewed. Finally,
money order balances were overstated by $165,166 due to money orders not
escheated as appropriate; however, this amount is a very small percentage of the total
money orders outstanding.2




1
  This is the monthly process of recording money orders outstanding for more than 2 years as miscellaneous revenue
and removing them from the Outstanding Money Order Liability Account in the subsidiary ledger.
2
  Outstanding money orders were valued at $749,762,604 as of April 30, 2009, when we performed our analysis.
Controls Over Money Orders                                                                          FT-AR-10-009




Controls Over Issuance of Money Order Replacement Checks

The Postal Service issued money order replacement checks even though Postal
Service (PS) Forms 6401, Money Order Inquiry,3 were not properly completed. This
occurred because retail associates did not ensure the forms were completed as
required. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxx

When incomplete money order inquiries continue with further processing even though
the forms are not properly completed, the risk of issuing an improper money order
replacement check increases. We project the Postal Service issued $367,550 in money
order replacement checks that were supported by incomplete PS Forms 6401 during
the period reviewed. See Appendix B for our detailed analysis of this topic.

We recommend the manager, Field and International Accounting:

1. Coordinate with St. Louis Accounting Service Center personnel to reconcile the
   differences between Postal Service policy and Money Order Inquiry System
   programming and revise the policy for completing Postal Service Form 6401, Money
   Order Inquiry, accordingly.

We recommend the vice president, Retail Products and Services:

2. Communicate to appropriate field personnel the updated policy for completing Postal
   Service Form 6401, Money Order Inquiry.

We recommend the manager, St. Louis Accounting Service Center:

3. Initiate a system change request for system edit(s) as necessary based on policy
   updates.




3
  Form used by customers, banks, and the Postal Service to obtain a copy of a cashed money order or receive a
refund.




                                                        2
Controls Over Money Orders                                                                               FT-AR-10-009




Management’s Comments

Management generally agreed with the findings and recommendations and stated they
submitted a software change request (SCR) for the Point-of-Service (POS) System that
will send an electronic version of PS Form 6401, capturing an image file representing
the customer’s signature. In addition, they agreed to communicate the nature and
impact of this system change immediately after implementation. Further, they will
continue to initiate SCRs when they issue policy changes or updates that impact the
MOIS to ensure alignment between policy and operations. Management expects to
implement the SCR by the end of Quarter 1, FY 2011.

Subsequent to issuance of written comments, management advised that, in addition to
actions already identified, they intend to revise policy for PS Form 6401 processes and
requirements and communicate changes via the Postal Bulletin. They expect to
complete these actions by Quarter 3, FY 2010. See Appendix D for management’s
comments in their entirety.

Reconciliation of Outstanding Money Order Liability Account

The St. Louis ASC has not been able to fully reconcile the Outstanding Money Order
Liability Account.4 Specifically, we identified a difference of over $1.1 million between
the ASC General Accounting Branch (GAB) and U.S. Postal Service Office of Inspector
General (OIG) manual calculation5 used to reconcile the account. This occurred
because the ASC GAB did not include all available information in developing their
calculation. The Postal Service recognized a system update is necessary to remove the
need for the calculation used in reconciling the account. As a result, until the account is
fully reconciled, the Postal Service has an increased risk that the account may be
misstated. See Appendix B for our detailed analysis of this topic.

We recommend the manager, St. Louis Accounting Service Center:

4. Implement the system change request upon approval to eliminate the need for the
   manual calculation (Account Identifier Code 641 reconciling item).

5. Until implementation of the system change request, continue to research and
   resolve the remaining unreconciled difference in the Outstanding Money Order
   Liability Account.

Management’s Comments

Management agreed with the recommendations and in October 2009 submitted a SCR
to address the issue, which was forwarded to POS Program Office personnel for
4
    General Ledger Account 21111.
5
    This calculation, or reconciling item, is called the Account Identifier Code (AIC) 641 adjustment.




                                                              3
Controls Over Money Orders                                                      FT-AR-10-009



evaluation and implementation when funds are available. Management expects the
funds to be available by September 30, 2011. Until implementation of the SCR, the GAB
will continue to review completed Outstanding Money Order Liability Account
reconciliations to ensure accuracy and completeness and monitor the daily processes
that support the account. These processes have been in place since September 2009.
GAB personnel will also continue their effort to identify causes for unidentified
differences.

Money Orders Escheatment

Money orders outstanding after 2 years from the issuance date were not always
escheated when required.6 Postal Service personnel could not determine why money
orders were not escheated appropriately because they did not have the capability to
review the money order detail necessary to detect them. As a result, the money order
subsidiary ledger is overstated by $165,166. See Appendix B for our detailed analysis of
this topic.

We recommend the manager, St. Louis Accounting Service Center:

6. Use the newly acquired data analytics tool to review detailed money order data at
   least annually to ensure money orders are properly escheated.

7. Escheat those money orders identified in our audit that are still outstanding after
   2 years and meet applicable business rules.
Management’s Comments

Management agrees with the finding and recommendations. Management plans to
provide training on the use of the data analytics tool that employees will use to assist in
analyzing money order data and to ensure on an annual basis that money orders are
properly escheated. Management is also working with information technology personnel
to implement a mechanical solution to ensure employees properly escheat outstanding
money orders. Initially, the target date for implementing this mechanical solution was
January 31, 2010; however, based on subsequent discussions the target date was
revised to February 28, 2010.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to all the recommendations in
the report, and management’s corrective actions should resolve the issue identified in
the report.




6
    These money order issue dates ranged from FYs 1979 to 2001.




                                                        4
Controls Over Money Orders                                                  FT-AR-10-009




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Steven R. Phelps
    Jean D. Parris
    Sally K. Haring




                                           5
Controls Over Money Orders                                                                               FT-AR-10-009



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The St. Louis ASC GAB has primary responsibility for accounting for money orders.
Because of the high volume of many relatively small transactions, the Postal Service
relies on system support7 to account for money orders issued and redeemed and
support the Money Order Database (MODB) and the MOIS. Once a money order is
sold, cashed, or spoiled,8 a record of that money order is reflected in the MODB. The
MODB is also the repository for the total money order liability subsidiary ledger used to
reconcile the Outstanding Money Order Liability Account.9 The MOIS is a web-based
system built to capture, process, and verify the status of PS Forms 6401. The system
captures information about the money order inquiry request to cause ultimately other
systems to generate a repayment, a copy of the cashed money order image, or an
explanatory letter to the customer.

Money Order Inquiry Process: The MOIS is used to process PS Forms 6401 submitted
by customers. When a customer submits a form, the retail associate reviews it for
completeness, collects a fee (if applicable), verifies the identity of the customer whose
signature is on the form, and documents verification on that form. The customer must
present the original detached money order customer receipt before completing the form,
and the retail associate must sign the form verifying the receipt was presented. The
retail associate then mails the forms to the Scanning and Imaging Center (SIC)10 for
processing. The SIC electronically forwards the scanned inquiries to the St. Louis
Integrated Business Systems Service Center (IBSSC) where personnel execute a
program that inspects the images and rejects forms that do not pass certain edits. The
program then electronically forwards rejected forms to the St. Louis ASC GAB for
correction before check issuance can occur.

St. Louis ASC GAB personnel reconcile accounts monthly. Specifically for the
Outstanding Money Order Liability Account, reconciliation involves comparing the
Outstanding Money Order Liability Account data from the general ledger11 to the same
data in the money order subsidiary ledger.12 St. Louis ASC GAB personnel perform the
account reconciliation and document it on a PS Form 3131, Standard Reconciliation of
Accounts. The GAB forwards the form to the GAB supervisor and system accountant
who sign off on the document after reviewing it and any supporting documentation for


7
  System support includes both technical personnel and systems.
8
  A money order that has been marked voided by a postal retail associate or reporting technology that renders a
money order of no value or utility.
9
  General Ledger Account 21111.
10
   The SIC, operated by Data Dimensions Corporation in Sheldon, IA, receives hard copy forms and documents from
field offices and converts them to electronic format. They then transmit them electronically to Accounting Services for
processing
11
   General ledger information is extracted from the Accounting Data Mart (ADM).
12
   Subsidiary ledger information is extracted from the MODB.




                                                           6
Controls Over Money Orders                                                                    FT-AR-10-009



accuracy and completeness. St. Louis ASC accounting staff must review all completed
reconciliations and take action to alleviate problems such as unreconciled differences.

Generally, the Postal Service accounts for any issued money order that remains
uncashed and is not lost, stolen, or destroyed and its replacement has not been cashed.
It will be accounted for as an outstanding money order liability in the subsidiary ledger. If
a money order has not been cashed after 2 years from the date of issuance and meets
certain other criteria, it will be taken into revenue and removed from the Outstanding
Money Order Liability Account in the subsidiary ledger. This process, known as
escheatment,13 occurs every month.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this portion of the audit was to determine whether controls over money
order replacement checks, account reconciliations, and escheatment were adequate.

To accomplish our objective, we traced replacement check issued data to original
scanned copies of PS Forms 6401. We used a random sample of 462 PS Forms 6401.
The universe consisted of 78,606 transactions for all replacement checks issued from
October 1, 2008, through May 31, 2009, valued at $20,338,178. See Appendix C for our
statistical sampling and projection of money order replacement checks. In addition, we
traced information from all money order account reconciliations prepared for May 2009
to supporting schedules. Further, we obtained and analyzed detailed data on money
orders in the MODB as of April 30, 2009, against Postal Service escheatment criteria.
We also interviewed personnel from the St. Louis ASC, the St. Louis IBSSC, and the
Finance Business System Portfolio Office.

We conducted this audit from August 2009 through February 2010 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusion based on our audit objective. We discussed our observations
and conclusions with management officials on October 29, 2009, and included their
comments where appropriate.

We used computer-generated data from MODB, MOIS, and ADM. We performed
specific internal control and transaction tests on these applications to include tracing
selected information from the MOIS Refund Summary Report to scanned PS Forms
6401. We relied on the data in these applications to develop our findings.



13
  St. Louis Money Order Branch Workflow Process Narratives, 3610 Money Order Escheatment Process, dated
February 23, 2007.




                                                     7
Controls Over Money Orders                                                                         FT-AR-10-009



PRIOR AUDIT COVERAGE

In FY 2008, we reported the Postal Service did not always require non-POS sites to use
the timeliest and most complete information available when identifying missing, lost, or
stolen money orders.14 Management did not agree with this finding. The intent of our
recommendation was to strengthen controls for non-POS sites by requiring use of the
most current missing, lost, or stolen money order information available. Because the
total value of cashed missing, lost, or stolen money orders is not significant, we did not
continue to pursue this issue at that time but will continue to monitor it as part of our
annual financial statement audit work.




14
  Fiscal Year 2008 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-09-009, dated February 23, 2009).




                                                        8
Controls Over Money Orders                                                                                FT-AR-10-009



                                  APPENDIX B: DETAILED ANALYSIS

Based on our review of money order processes at the St. Louis ASC, we found controls
over replacement checks, account reconciliations, and escheatment needed
improvement.

Controls Over Issuance of Money Order Replacement Checks

We determined replacement checks were issued even though PS Forms 6401 were not
properly completed. We found 20 forms out of 462 reviewed (valued at $4,499) had
missing information in required data fields. Specifically:

    Seven forms were missing Postal Service retail associate signatures, which the
     Postal Service considers a key control15 for financial reporting purposes.16
    Three forms were missing customer signatures.
    Five forms were missing customer identification verification.
    Five forms were missing finance numbers.17

Postal Service policy18 requires the retail associate to ensure the data fields noted are
completed. We could not determine why the forms were not completed by the retail
associates. However, according to St. Louis ASC GAB personnel, when a PS Form
6401 is scanned and updated in the MOIS, the MOIS contains edit checks that reject19
forms when a defined error20 exists in certain fields. St. Louis ASC GAB personnel
review these rejects and correct or acknowledge them.21

Regarding the forms we identified with missing retail associates’ signatures,
replacement checks were issued even though MOIS identified an error in that field.
Currently, the MOIS is not programmed to detect the other error types identified.
Although these other errors are not key controls, operationally these do provide a
benefit to this process and are required by Postal Service policy. We are not aware of
other compensating or mitigating controls to reject and correct these incomplete forms.

According to St. Louis ASC personnel, several years ago, to improve customer service,
management programmed system changes so the MOIS no longer rejected PS Forms
6401 missing the retail associate’s signature. Currently the system is operating as


15
   A key control is one that is essential to providing a level of assurance that process objectives are being achieved.
16
   In this case, the signature provides assurance that the customer is in possession of a valid voucher receipt.
17
   These forms were for bank inquiries.
18
   Handbook F-101, Section 10-3.
19
   When certain required data is missing from the money order inquiry forms, the MOIS stops processing and
forwards the forms electronically to the St. Louis ASC to be corrected.
20
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
21
   Rejects that could not be immediately corrected by the technician are set aside for further research.




                                                            9
Controls Over Money Orders                                                                              FT-AR-10-009



intended. However, Postal Service policy22 does not reflect these changes and needs to
be updated.

When incomplete money order inquiries continue with further processing even though
the forms are not properly completed, the risk of issuing an improper money order
replacement check increases. We project the Postal Service issued $367,550 in money
order replacement checks that were supported by incomplete PS Forms 6401 during
the period reviewed. See Appendix C for our statistical sampling and projections of
money order replacement checks. We consider the $367,550 as monetary impact,
unrecoverable unsupported questioned cost.23

Reconciliation of the Outstanding Money Order Liability Account

The St. Louis ASC has not been able to fully reconcile the Outstanding Money Order
Liability Account.24 In an attempt to reconcile the account, the St. Louis ASC GAB
incorporated a manual AIC 641 reconciling item.25 However, GAB personnel calculated
the reconciling item at $4,349,038,26 and we calculated this same reconciling item at
$3,223,456.27 The difference of $1.1 million was due to the fact that the ASC GAB did
not include the most up-to-date money order information for prior months activity when
performing the calculation. ASC GAB personnel acknowledged the item is only an
estimate and may range between the two amounts calculated.

Postal Service policy28 requires this account to be reconciled monthly so all differences
between the general ledger and the subsidiary ledger are identified and quantified. The
Postal Service considers account reconciliations to be a key control.29 The risk of a
material misstatement is increased when reconciling items are not resolved timely.

During our audit, St. Louis ASC GAB personnel recognized the issues surrounding the
reconciling item and submitted a system change request (SCR) in September 2009 to
timely update the subsidiary ledger and eliminate the need for the manual reconciling
item. However, implementation of the SCR will not address the remaining unreconciled
difference. The St. Louis ASC GAB personnel have continued to research other

22
   Management is aware that reconciling items occur and require time and resources to resolve. Therefore, they
revised the reconciliation format for general ledger account 21111. This account has not been fully reconciled since at
least FY 2007.
23
   Unrecoverable unsupported questioned costs are unrecoverable costs that are unnecessary, unreasonable, or an
alleged violation of law or regulation. These costs are also not supported by adequate documentation.
24
   General Ledger Account 21111. As of August 31, 2009, the balance in this account was $688,536,812.
25
   This item, called the AIC 641 adjustment, incorporates money order replacement costs into the subsidiary ledger.
Currently, these items are reflected in the general ledger but not in the subsidiary ledger at the time the transaction
occurs.
26
   Listed as a reconciling item on the May 2009 reconciliation form.
27
   As reflected on the No Fee Summary Report from MOIS as of May 31, 2009, updated July 29, 2009.
28
   Handbook F-20A, Accounting Service Center Accounting Guidelines, Chapter 6, dated May 1999, as revised
through October 2001; and Handbook F-20, General Ledger Accounting and Financial Reporting System, Chapter 9,
dated December 2004.
29
   The account reconciliation is considered a key control because it provides assurance that the account balance
presented is accurate.




                                                          10
Controls Over Money Orders                                                                          FT-AR-10-009



elements of the money order process and have identified other reconciling items, which
should continue to reduce the unreconciled difference. Until the account is fully
reconciled, the Postal Service has an increased risk that the account may be misstated.

Money Orders Escheatment

The Postal Service did not always escheat money orders that are outstanding more
than 2 years from issuance date. Specifically, we identified 1,357 money orders, valued
at $165,166, outstanding more than 2 years from issuance date that are still reflected in
the Outstanding Money Order Liability Account in the money order subsidiary ledger.30
These money order issue dates ranged from FYs 1979 to 2001.

Postal Service procedures require uncashed money orders to be escheated if specific
business rules are met. Business rules, including the 2-year escheatment criteria, are
programmed into the MODB and not formally documented in policy or procedures.31

St. Louis ASC GAB personnel could not have detected these money orders because
they did not have the capability to review the money order detail by serial number. As a
result, the money order subsidiary ledger is overstated by $165,166. We consider the
$165,166 in money orders not escheated as monetary impact, in the category of
recoverable revenue loss.32

The St. Louis ASC manager advised that they have purchased a data analytics tool so
money order detail can be reviewed and monitored once proficiency in the use of the
tool has been developed.




30
   This represents a very small percentage out of the outstanding money orders, valued at $749,762,604, as of
April 30, 2009, when we performed our analysis.
31
   The GAB provided the business rules they used to process money orders. Although formal policies or procedures
that cover these specific business rules do not exist, we did identify the following: St. Louis Money Order Branch
Workflow Process Narrative, 3610 Money Order Escheatment, dated February 23, 2007, shows that uncashed
money orders must be escheated after 2 years, and Handbook F-1, Accounting and Reporting Policy, Chapter 4-5.2,
dated July 2009, briefly describes the escheatment process.
32
   We did not provide the calculation of monetary impact in this report because it was too voluminous. However, we
provided details of each individual money order comprising the total $165,166 to ASC management.




                                                        11
Controls Over Money Orders                                                      FT-AR-10-009



           APPENDIX C: STATISTICAL SAMPLING FOR MONEY ORDER
          REPLACEMENT CHECKS AND PROJECTED MONETARY IMPACT

The objective of this portion of the audit was to test the operating effectiveness of
controls over money order replacement checks to determine whether those controls are
operating as designed. We accomplished this objective by tracing replacement check
issued data to original and scanned copies of PS Forms 6401 in the MOIS to ensure
that the forms were accurately completed in accordance with Postal Service policy.

Statistically, we had two objectives: (1) to project the proportion of money orders in the
audit universe for which the PS Forms 6401 were not accurately completed (attribute
sampling), and (2) to project the dollar amount associated with the money orders in the
audit universe for which the PS Forms 6401 were not accurately completed (variable
sampling).

Definition of the Audit Universe (Population)

The audit universe consisted of 78,606 replacement checks issued from
October 1, 2008, through May 31, 2009. We obtained the universe information from the
MOIS Refund Summary Report.

Sample Design and Modifications

The audit universe of 78,606 replacement checks was organized on 2,306 pages.
Therefore, we decided to employ a two-stage random sample design. We chose the
pages as the primary sampling units (or clusters) and the replacement checks as the
secondary units in our two-stage design. We determined a typical page contained 41
entries. We decided to sample each entry on each randomly selected page and base
the sample size on the variable sampling objective (2). Initially, it was unknown how
many pages we would need to sample in order to achieve +/-20 percent relative
precision at the 95 percent confidence level. Our strategy was to begin sampling with
the first randomly selected cluster (page) and proceed with subsequent randomly
selected pages until the required precision was achieved. Ultimately, the sample size
was limited by the audit resources available. The final sample size was 13 clusters
(pages) and a total of 462 money orders.

We made all selections for inclusion in the sample using the “Random Number”
generator function in the Analysis ToolPak add-in in Excel.

Statistical Projections of the Sample Data

For the attribute sampling portion, the point estimate was 3.98 percent (3,132 MOs),
with a lower bound of 2.30 percent (1,810 MOs) and an upper bound of 5.67 percent
(4,454 MOs) at the 95 percent confidence level. Therefore, we are 95 percent confident




                                            12
Controls Over Money Orders                                                   FT-AR-10-009



the proportion of money orders in the audit universe for which the PS Forms 6401 were
not accurately completed is between 2.30 percent and 5.67 percent.

For the variable portion, the point estimate was $704,619. However, the sampling
precision achieved was greater than our reporting standard of +/-20 percent relative
precision at the 95 percent confidence level. Therefore, as a conservative estimate, we
will report, as monetary impact, the lower bound of a 90 percent two-sided confidence
interval because we can be 95 percent confident the true population parameter is at
least as great as it.

Therefore, we are 95 percent confident the dollar amount associated with money orders
in the audit universe for which the PS Forms 6401 were not accurately completed is at
least as great as $367,550. We will report $367,550 as unsupported unrecoverable
questioned costs.

               Finding                      Impact Category               Amount
   Controls Over Issuance of Money     Unsupported Unrecoverable           $367,550
   Order Replacement Checks            Questioned Costs




                                           13
Controls Over Money Orders                                FT-AR-10-009



                      APPENDIX D. MANAGEMENT’S COMMENTS




                                     14
Controls Over Money Orders        FT-AR-10-009




                             15
Controls Over Money Orders        FT-AR-10-009




                             16
Controls Over Money Orders        FT-AR-10-009




                             17
